                       U.S. Department of Agriculture

                          Office of Inspector General
                                    Southeast Region




             Audit Report

Special Supplemental Nutrition Program for
      Women, Infants, and Children,
               Puerto Rico




                               Report No. 27004-4-At
                                           May 2007
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Southeast Region - Audit
                                  401 West Peachtree Street, Suite 2328
                                         Atlanta, Georgia 30308
                                  TEL: 404-730-3210 FAX: 404-730-3221




May 24, 2007


REPLY TO
ATTN OF:       27004-4-At

TO:            Yvette Jackson
               Regional Administrator
               Food and Nutrition Service – Mid-Atlantic Region

ATTN:          Catherine Lueck
               Director of Financial Management

FROM:          Raymond G. Poland /S/
               Regional Inspector General

SUBJECT:       Food and Nutrition Service, Special Supplemental Nutrition Program for Women,
               Infants, and Children, Puerto Rico


This report presents the results of the subject audit. Your response dated May 9, 2007, to the
draft report is included in exhibit B, with excerpts and the Office of Inspector General’s position
incorporated into the relevant Findings and Recommendations section of the report. Based on
your responses, we have accepted management decision on all recommendations in the report.

Follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer. Final action on the management decisions should be completed
within 1 year of the date of this report to preclude being listed in the Department’s Performance
and Accountability Report.

We appreciate the cooperation and assistance provided by you and your staff during this audit.
Executive Summary
Special Supplemental Nutrition Program for Women, Infants, and Children, Puerto Rico
(Audit Report No. 27004-4-At)

Results in Brief                        The Food and Nutrition Service (FNS) administers the Special Supplemental
                                        Nutrition Program for Women, Infants, and Children (WIC). WIC programs
                                        are designed to improve the nutrition of women and children by providing
                                        wholesome foods and other nutrition-related services. Similar State programs
                                        serve participants in all 50 States, as well as U.S. territories, including Puerto
                                        Rico. The FNS Mid-Atlantic Region is responsible for overseeing the Puerto
                                        Rico WIC activities. The Puerto Rico Health Department is the State agency
                                        (SA) responsible for administering Puerto Rico’s WIC—a program that, in
                                        fiscal year (FY) 2006, served 203,134 participants for total costs of
                                        $163.2 million in food and $36 million for nutrition service administration
                                        (NSA) costs. The Office of Inspector General (OIG) initiated this audit to
                                        evaluate FNS’ management controls (1) for overseeing how the SA manages
                                        the WIC program, as well as the SA controls for authorization and oversight
                                        of WIC vendors 1 and (2) over the infant formula cost containment program 2 .

                                        We reviewed WIC vendor management operations for FYs 2004 and 2005,
                                        evaluated FNS’ and the SA monitoring activities from FYs 2000 to 2005, and
                                        visited 6 of 51 “WIC-only” vendors. We concluded that control weaknesses
                                        exist at both FNS and the SA.

                                        FNS reviews a portion of Puerto Rico’s WIC program annually and the entire
                                        program is covered on a 3-year cycle. Over the past cycle, FNS reported a
                                        total of 38 weaknesses in different aspects of the program’s operations. FNS
                                        had not been able to resolve 25 of these weaknesses; 8 of which related to our
                                        audit scope (as shown in exhibit A, some weaknesses were reported multiple
                                        times). FNS officials explained that, unlike in other States, the core
                                        management positions in Puerto Rico’s WIC program were political
                                        appointments that changed each time the governing party changed. These
                                        positions were thus continually being filled with new officials—some of
                                        whom were not familiar with the program—thereby, delaying
                                        implementation of needed corrective actions. The following major issues we
                                        noted during this audit are also reflected in six of the eight weaknesses FNS
                                        noted during its reviews. Specifically, the SA failed to:

                                         •    Fully reconcile food instruments issued to participants since FY 2000.
                                              The SA did not have adequate controls in place to ensure the validity of
                                              food instruments redeemed that could not be matched to enrollment
                                              records. SA officials authorized the bank to redeem and pay food

1
    For an explanation of the different sorts of WIC vendors, see Background.
2
    As required by Title 7, Code of Federal Regulations (CFR), section 246.16(a).

USDA/OIG-A/27004-4-At                                                                                              Page i
                        instruments even when the instruments were not listed as issued by the
                        clinics because they assumed the clinics were having computer
                        transmission problems. However, the SA did not request an exception
                        report of these instruments to research and validate at a later time.
                        Therefore, the SA did not follow up on at least 11,939 of these food
                        instruments totaling $335,148 from May 2005 through October 2006.
                        This compromised the integrity of the reconciliation process.

                    •   Monitor WIC vendors in order to ensure they comply with all relevant
                        program regulations. Federal regulations require that SAs perform both
                        routine monitoring and compliance investigations; but Puerto Rico had
                        completed only routine monitoring from FY 2000 to FY 2006.
                        Compliance investigations include both compliance buys and inventory
                        audits; however, the SA had only conducted compliance buys from
                        December 2004 through May 2006 and had just begun inventory audits
                        in June 2006.

                    Further, FNS learned while conducting its management reviews that the SA
                    had not excluded products that had tested nutritionally deficient from its list
                    of approved WIC products. The SA did not take appropriate steps in
                    August 2003 to inform vendors that 33 products were suspended from the
                    program because they had failed nutritional tests. The SA had no assurance
                    that participants were receiving products that met Federal nutritional
                    requirements. Moreover, without finalizing a list of approved products, the
                    SA could not authorize new vendor agreements that had expired in
                    September 2003. In November 2006 the SA interim WIC Director approved
                    a new list of WIC products after the products passed new nutritional testing
                    and the SA confirmed the products met Federal nutritional requirements.
                    The new list of approved products was submitted to vendors for price bids
                    under the new vendor cost containment program.

                    Although FNS reported these problems to the SA between FYs 2000 and
                    2004, we found that the SA had not taken satisfactory steps to correct them.
                    FNS, however, chose not to invoke its statutory authority to withhold NSA
                    funds. FNS officials stated that withholding NSA funds would harm
                    program participation. Consequently, FNS repeatedly postponed deadlines
                    and allowed new officials time to learn the program and to consider
                    remedies for identified problems, but the officials kept changing and the
                    problems continued.

                    We acknowledge the dilemma FNS faces when dealing with the high
                    turnover among SA officials. During the course of our audit, when we
                    questioned program decisions, we often found that important decisions were
                    made by officials who had left the program. An official currently holding a
                    position could not always explain why the decision in question was made.
                    We concluded that this lack of continuity in key positions is one of the

USDA/OIG-A/27004-4-At                                                                      Page ii
                                       greatest obstacles to improving Puerto Rico’s WIC program. However, FNS’
                                       decision to not apply sanctions serves to decrease the urgency with which
                                       SA officials deal with identified program weaknesses. FNS should work
                                       with the SA to improve stability of WIC program management by requiring
                                       a time-phased corrective action plan that determines the actions that will be
                                       taken to assign permanent staff to key program positions and/or
                                       responsibilities. FNS should invoke its statutory authority to enforce
                                       sanctions if corrective actions are not implemented.

                                       In addition to those WIC program weaknesses FNS had already identified,
                                       we identified two other problems:

                                       •   The SA compromised the vendors’ bidding process by releasing the
                                           consumption factor of products to vendors prior to bids being accepted.
                                           The consumption factor shows the quantity of each particular food item
                                           that is prescribed on food instruments to the program participants. Thus,
                                           the released consumption factor information allowed vendors to calculate
                                           their bid prices in ways that increased food costs and was
                                           disadvantageous to the program by overpricing high consumption food
                                           items and underpricing low consumption food items. In addition, the SA
                                           did not take into consideration these factors that impacted the bid prices
                                           when authorizing vendors. Rather, the SA simply added the total amount
                                           for each product as the total package bid, giving no consideration to the
                                           quantity of each item that participants would actually consume. In
                                           September 2006, FNS approved a vendor cost containment measurement
                                           plan submitted by the SA that includes setting maximum allowable
                                           prices. If properly implemented, the plan should correct this situation.

                                       •   The SA violated regulations 3 when they condoned the use of in-store
                                           credits. The WIC Vendor Division Manager and investigators within that
                                           unit admitted they were aware that vendors were keeping “milk
                                           registers”, which was a system of informal in-store credits and that this
                                           practice violated the regulations. We found vendors were not always
                                           providing participants with all the food items allotted to them, yet they
                                           redeemed the entire value of the food instruments. In five of six “WIC-
                                           only” stores we visited, we observed that vendors were maintaining
                                           “milk registers.” When participants redeemed all their food instruments
                                           at once, they were taking home fewer commodities than specified, and
                                           were instead carrying credit balances on these “milk registers.” All
                                           registers reviewed disclosed participants had outstanding, and growing,
                                           balances of milk not delivered each month. Thus, vendors were
                                           reimbursed for milk that ultimately may never be delivered to
                                           participants. We were unable to quantify the total amount of milk that
                                           was reimbursed but undelivered because the informal registers kept by

3
    7 CFR, section 246.12(h)(3)(ii).

USDA/OIG-A/27004-4-At                                                                                        Page iii
                        vendors did not include sufficient detailed information. For example,
                        many of the registers listed only a first name without the associated last
                        name. The SA Vendor Division officials stated that this practice was
                        justifiable because they concluded the number of half gallons prescribed
                        to participants were excessive even though these guidelines were
                        established by nutritionists. However, FNS officials stated that the milk
                        prescribed to participants was in accordance with Federal regulations and
                        that the SA should enforce the proper redemption of food instruments.
                        After we discussed this condition with SA officials, they sent a letter in
                        August 2005 to vendors prohibiting “milk registers” and reminding them
                        of possible penalties if they do not deliver all products when food
                        instruments are redeemed. However, the SA had not improved
                        monitoring controls over vendors to determine if this practice continues
                        to exist.

                    FNS should work with the SA to establish a process in which corrective
                    actions continue during changes in top management and hold the SA
                    accountable for correcting all identified program weaknesses. If FNS finds
                    that the SA does not correct these problems, the agency should invoke its
                    statutory authority to withhold NSA funds.

                    Our evaluation of the management controls over the infant-formula cost
                    containment program did not identify any reportable issues, and therefore,
                    resulted in no recommended actions. We did not review the new vendor cost
                    containment program that was authorized by the Reauthorization Act of
                    2004, and made effective by FNS in November 2005. The SA had just
                    recently submitted and received approval from FNS of their cost
                    containment plan in October 2006.

Recommendations
in Brief           Require the SA to develop a corrective action plan to correct all unresolved
                   identified program weaknesses and establish a timeframe to accomplish
                   them, including making a determination as to whether a full-time or
                   equivalent administrator be assigned for the program.

                   As part of the corrective action plan, require the SA to (1) research and
                   validate food instruments paid but not listed in the SA’s system as being
                   issued by clinics; (2) monitor vendors in accordance with Federal regulations;
                   (3) remove from list of authorized foods, any products that comes to the SA
                   attention has failed a nutritional test and verify during vendor monitoring
                   visits that it is not being provided to participants; (4) ensure that the new
                   vendor cost containment implementation plan approved by FNS in
                   October 2006 is implemented; and (5) include tests in its routine monitoring,
                   compliance buys and inventory audits to determine if any forms of in-store
                   credit, including “milk registers” are being used by vendors.


USDA/OIG-A/27004-4-At                                                                     Page iv
Agency Response    In its May 9, 2007, written response to the draft report, FNS Regional Office
                   officials agreed with the report’s 12 recommendations. We have incorporated
                   excerpts from FNS’ response in the Findings and Recommendations section
                   of this report, along with the OIG position. FNS’ response is included as
                   exhibit B.

OIG Position       Based on FNS’ response, we were able to reach management decision on all
                   of the report’s 12 recommendations.




USDA/OIG-A/27004-4-At                                                                    Page v
Abbreviations Used in This Report

AMS     Agricultural Marketing Service
CFR     Code of Federal Regulations
FDA     Food and Drug Administration
FNS     Food and Nutrition Service
FY      Fiscal Year
NSA     Nutrition Service Administration
OIG     Office of Inspector General
SA      State Agency
SENA    Selección Efectiva de Negocios Autorizados (Effective Selection of Authorized Vendors)
USDA    U.S. Department of Agriculture
WIC     Women, Infants, and Children




USDA/OIG-A/27004-4-At                                                                     Page vi
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................vi

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. FNS Should Require the SA to Correct Identified Program Weaknesses ................. 4

        Finding 1             FNS Did Not Impose Sanctions When the SA Failed to Correct Problems ........... 4
                                 Recommendation 1 .......................................................................................... 7
                                 Recommendation 2 .......................................................................................... 7

    Section 2. The SA Should Improve Controls Over Vendors......................................................... 8

        Finding 2             The SA Has Not Fully Reconciled WIC Food Instruments .................................... 9
                                   Recommendation 3 ........................................................................................ 10
                                   Recommendation 4 ........................................................................................ 11
        Finding 3             The SA Controls Over Vendor Monitoring is Deficient ....................................... 11
                                   Recommendation 5 ........................................................................................ 14
                                   Recommendation 6 ........................................................................................ 14
        Finding 4             The SA Should Require Vendors to Provide Participants With All Products
                              Listed on Their Food Instruments ......................................................................... 14
                                   Recommendation 7 ........................................................................................ 17
                                   Recommendation 8 ........................................................................................ 18
                                   Recommendation 9 ........................................................................................ 18
        Finding 5             The SA Did Not Exclude Products With Nutritional Deficiencies....................... 19
                                   Recommendation 10 ...................................................................................... 21
                                   Recommendation 11 ...................................................................................... 21
        Finding 6             The SA Needs to Improve its Vendor Selection Process ...................................... 22
                                   Recommendation 12 ...................................................................................... 24

Scope and Methodology........................................................................................................................ 25

Exhibit A – Outstanding Issues Reported by FNS in the Management Evaluation Report.......... 27
Exhibit B – Agency Response............................................................................................................... 28




USDA/OIG-A/27004-4-At                                                                                                                   Page vii
Background and Objectives
Background                            The Food and Nutrition Service (FNS), an agency of the U.S. Department of
                                      Agriculture (USDA), administers nutritional programs in partnership with
                                      cooperating State agencies (SA). FNS is responsible for most of the nation’s
                                      nutritional assistance programs, including the Special Supplemental Nutrition
                                      Program for Women, Infants, and Children (WIC). 4 WIC was established to
                                      improve the nutrition of low-income pregnant, postpartum, and breastfeeding
                                      women; infants and children up to age 5 who are at nutritional risk. Under
                                      this program, participants are provided healthy foods, nutrition education,
                                      immunizations, and access to other social and health programs.

                                      WIC Program Administration

                                      Nationwide, WIC operates through 2,200 local agencies, 9,000 clinic sites,
                                      50 State health departments, and 33 Indian Tribal organizations. In addition
                                      to the 50 States, WIC programs exist in American Samoa, the District of
                                      Columbia, Guam, Puerto Rico, and the Virgin Islands. The FNS Mid-Atlantic
                                      Region is responsible for the oversight of WIC in Puerto Rico, while the
                                      Puerto Rico Health Department is the SA responsible for administering
                                      Puerto Rico’s WIC program and manages the WIC program in Puerto Rico
                                      through a central office in San Juan, 7 regional offices and 102 clinics located
                                      throughout the island.

                                      WIC is a Federal grant program, for which Congress authorizes a specific
                                      amount of funding each year for program operations. In fiscal year
                                      (FY) 2006, Puerto Rico served 203,134 WIC participants for a total cost of
                                      $163.2 million in food and $36 million in nutrition service administration
                                      (NSA) costs.

                                      Redemption of Food Instruments

                                      WIC participants are approved a monthly food package of specific food items
                                      that participants can obtain at retail stores in exchange for WIC food checks
                                      or instruments. These food packages are designed for infants or children of
                                      different ages, or for women who are pregnant or breast feeding. Each food
                                      instrument specifies the food package authorized and maximum dollar
                                      amount the WIC vendor can claim. In Puerto Rico, participants receive a
                                      WIC food instrument generated at the local clinics and may redeem them at
                                      any of the 735 authorized retail stores. Retail stores then submit the redeemed
                                      food instruments to the SA for reimbursement. Redeemed food instruments
                                      list the products purchased by the WIC participants and the prices charged at
                                      the retail stores. The SA is required to account for the disposition of all food

4
    Public Law 92-433 Supplement, “Child Nutrition Act of 1966,” dated September 26, 1972.

USDA/OIG-AUDIT/27004-4-At                                                                                      Page 1
                                      instruments in a process which FNS defines as the one-on-one reconciliation.
                                      In this process, the SA identifies each instrument as either validly issued, lost,
                                      stolen, expired, duplicated, or not matching valid enrollment and issuance
                                      records.

                                      Since 1996, “WIC-only” stores—vendors accepting only WIC food
                                      instruments as payment—have proliferated nationwide. These stores have
                                      become popular with WIC participants because they receive convenient
                                      service without the stigma sometimes experienced at the checkout registers of
                                      full-service retail stores. However, prices at most “WIC-only” stores are
                                      usually higher than the prices at full-service retail stores. In some cases,
                                      “WIC-only” vendors are pricing products at or near the maximum value
                                      allowed by the WIC program.

                                      In FY 2005, Congress passed a law to restrict the number of vendors
                                      expecting to receive more than 50 percent of their annual revenue from the
                                      sale of supplemental foods obtained with WIC food instruments. Congress
                                      allowed the Secretary of Agriculture to authorize new “WIC-only” vendors
                                      only if they were necessary to assure participant access to program benefits. 5

                                      As of September 30, 2004, Puerto Rico had 735 authorized WIC retailers, of
                                      which 51 were “WIC-only” stores. Puerto Rico has also witnessed the
                                      creation of a new type of store called, “Baby Food Center Stores.” Although
                                      these stores are “WIC-only” in the sense that they predominately cater to
                                      WIC participants, these stores also carry other products and attract other
                                      customers. So, while these stores operate as “WIC-only,” they also sell other
                                      products which cannot be purchased with WIC food instruments.

                                      Infant Formula Cost Containment

                                      SAs are required by law to have competitive bid infant formula rebate
                                      contracts with infant formula manufacturers for the WIC program. These
                                      contracts stipulate that the State agrees to provide one brand of infant
                                      formula, and in return, the manufacturer gives the SAs a rebate for each can
                                      of infant formula purchased by WIC participants. The reduced food costs
                                      resulting from these agreements allow the State to serve more eligible
                                      families.

                                      Vendor Cost Containment

                                      In the Reauthorization Act of 2004, Congress asked FNS to establish a
                                      vendor cost containment program to compel SAs to achieve lower food costs.
                                      The Act requires SAs to implement a vendor peer group with distinct
                                      competitive prices and allowable reimbursement levels. In addition, the Act

5
    “Consolidated Appropriations Act 2005,” dated December 8, 2004.

USDA/OIG-AUDIT/27004-4-At                                                                                        Page 2
                   establishes limitations on how the SA can authorize vendors which generate
                   more than 50 percent of their annual income selling supplemental foods to
                   WIC participants.

Objectives         Our audit objectives were to (1) evaluate FNS’ management controls for
                   overseeing how the SA manages the WIC program; (2) evaluate management
                   controls over the authorization and oversight of WIC stores in Puerto Rico;
                   and (3) evaluate how the SA has managed the Infant Formula Rebate System.




USDA/OIG-AUDIT/27004-4-At                                                              Page 3
Findings and Recommendations
Section 1. FNS Should Require the SA to Correct Identified Program Weaknesses

                                     We found that FNS has implemented an effective management evaluation
                                     system for identifying WIC program weaknesses. From FY 2000 to 2004,
                                     FNS identified 38 weaknesses in the SA operations. Although FNS reported
                                     these weaknesses in management evaluation reviews, recommended
                                     corrective actions to the SA, and maintained continuous written and verbal
                                     communication with the SA, its efforts to compel the SA to correct
                                     weaknesses were hindered by frequent turnover in key WIC management
                                     positions. As a result, the SA did not correct 25 6 of the 38 identified
                                     weaknesses. Eight of these 25 program weaknesses related to food
                                     instruments and vendor management (see exhibit A).

                                     Because the program weaknesses are long standing, FNS should work more
                                     aggressively with the SA to develop a feasible plan for correcting all
                                     identified program weaknesses. If the SA fails to comply with this action
                                     plan, FNS should enforce sanctions by invoking its authority to withhold
                                     NSA funds.




Finding 1                             FNS Did Not Impose Sanctions When the SA Failed to Correct
                                      Problems

                                     Although the SA had not corrected 25 of the 38 weaknesses reported in the
                                     management evaluations performed from FY 2000 through 2004, FNS did
                                     not have a plan to impose sanctions by withholding NSA funds from the SA.
                                     FNS maintained frequent communication with SA officials, through weekly
                                     conference calls, meetings, e-mails, and memos, in order to correct issues
                                     reported. FNS officials explained that they granted the SA repeated
                                     extensions for completing its corrective actions because successful
                                     implementation of long-term, sustained corrective action was hampered by
                                     high turnover in the SA’s administrative personnel, vacancies not being filled
                                     timely in permanent program management, and the implementation of a new
                                     information system. 7 In addition, FNS officials explained they only withhold
                                     NSA funds when it is determined that the SA mismanaged the program or
                                     monetary loss is identified. Moreover, FNS officials stated their reluctance to
                                     impose sanctions in Puerto Rico resulted from their experience in the early
                                     1990s, when imposing sanctions caused the SA to curtail its services and
                                     thereby cut program participation. We maintain that FNS’ unwillingness to

6
  Of the 25 uncorrected weaknesses, 2 were identified in FY 2000; 5 were identified in FY 2002; 15 were identified in FY 2003; and 3 were identified in
FY 2004.
7
  The implementation of this new information system is discussed at length in Findings 2 and 3.

USDA/OIG-AUDIT/27004-4-At                                                                                                                       Page 4
                                     impose sanctions meant that there was little incentive for the SA to promptly
                                     resolve these problems. Thus, FNS chose not to utilize a control created to
                                     help ensure effectiveness and efficiency in the WIC program.

                                     FNS established a management evaluation system to assess the
                                     accomplishment of WIC program objectives. Federal regulations state, if
                                     FNS determines through a management evaluation or other means that during
                                     a fiscal year the SA has failed, without good cause, to demonstrate efficient
                                     and effective administration of its program, or has failed to comply with its
                                     correction action plan, FNS may withhold up to 100 percent of NSA funds
                                     for that fiscal year. 8 However, FNS did not withhold any NSA funds when
                                     the SA repeatedly failed to comply with their corrective action plans.

                                     FNS was conducting annual management evaluations of selected
                                     components 9 of Puerto Rico’s WIC program; completing a review of the
                                     entire program on a 3-year cycle. These evaluations were effective in
                                     identifying a number of problems. From FY 2000 through 2004, FNS
                                     completed 11 management evaluations and reported 38 weaknesses in
                                     different aspects of the WIC operations. Despite FNS sending numerous
                                     letters to the SA to follow up on the reported weaknesses, the SA was
                                     unresponsive and FNS was unable to close 25 10 of these weaknesses. In
                                     particular, the SA had not corrected eight weaknesses related to food
                                     instruments and vendor management activities, including the following.

                                      •     In FYs 2000 and 2003, FNS reported that the SA was not conducting the
                                            one-on-one reconciliation of all food instruments. Without this one-on-
                                            one reconciliation, the agency could not account for the final disposition
                                            of all food instruments (see exhibit A).

                                      •     In FY 2003, FNS reported that the SA was not exercising adequate
                                            oversight of its vendors. Without adequate oversight, SA officials cannot
                                            be certain that vendors are abiding by program regulations. The high
                                            number of violations uncovered by the SA’s 2005 compliance buys 11
                                            demonstrated the SA’s pressing need to comply with Federal compliance
                                            investigation requirements (see Finding 3).

                                     Further, in FY 2003, FNS learned while conducting its management reviews
                                     that the SA knew some juices prescribed to WIC participants did not meet
                                     Federal nutritional requirements. However, FNS was unaware that the SA did
                                     not notify vendors and participants of the situation. We inquired why the SA
                                     had not notified vendors and participants, but because of SA staff turnover,
                                     no current officials knew why. The SA is in the process of entering into an
8
  Title 7, Code of Federal Regulations (CFR), section 246.19(a)(2).
9
  Management evaluations are performed for different aspects of the program, including: vendor management, food and caseload management,
information systems and food delivery.
10
   As shown in exhibit A, FNS has reported several weaknesses multiple times, and keeps all recommendations open until they are corrected.
11
   A compliance buy is when a contractor performs covert onsite investigations of vendors by posing as participants and redeeming food instruments.

USDA/OIG-AUDIT/27004-4-At                                                                                                                      Page 5
                                     agreement with the University of Puerto Rico to test products and require
                                     manufacturers to provide certification from the university confirming the
                                     nutritional values of the products. Though the SA has taken these steps
                                     towards determining which products meet Federal standards, that work has
                                     not yet been completed. As a result, the nutritional quality of products
                                     reaching program participants is still in doubt (see Finding 5).

                                     FNS officials explained that they have met with Puerto Rico officials on
                                     numerous occasions in the past 5 years to resolve outstanding weaknesses;
                                     however, their efforts have been hindered by continuous personnel turnover
                                     in key WIC positions. Several important management positions 12 in the SA
                                     have changed from two to six times in the past 5 years—three individuals
                                     have served as WIC Director since 1999, and the position has been filled by
                                     an acting official since November 2004. The current interim Director is
                                     working part-time for the program because he divides his time in WIC with
                                     his responsibilities as legal advisor for the Secretary of the Puerto Rico
                                     Health Department. Regulations require a full-time, or equivalent,
                                     administrator be assigned to the program 13 . Unlike other States where this is
                                     a career position, the WIC Director in Puerto Rico is a political appointee
                                     who changes as the governing party changes. FNS stated that not only were
                                     the SA officials continuously changing, but so were other positions vital to
                                     ensuring that statutory requirements are met.

                                     Due to this high personnel turnover, FNS officials are continuously training
                                     and providing technical support to WIC management and other key positions
                                     in order to update new appointees on issues affecting the WIC program. FNS
                                     believes that new appointees deserve some time to understand and attempt to
                                     correct problems before FNS imposes sanctions, especially since some
                                     appointees lack experience or knowledge in the field.

                                     OIG recognizes that timely completion of corrective action has been more
                                     difficult because of these personnel changes; however, this is a recurring
                                     scenario over many years and WIC now issues over $160 million of benefits
                                     yearly in Puerto Rico. It is therefore imperative that the agency resolve
                                     identified program weaknesses as promptly as possible. We concluded that
                                     FNS should coordinate with SA officials to establish feasible dates for the
                                     completion of all outstanding corrective actions. At the same time, FNS
                                     should invoke its authority to withhold NSA funds if the SA does not
                                     complete corrective action plans by agreed-upon dates. FNS should also
                                     pursue with the SA what actions can be taken to ensure reasonable stability in
                                     WIC program management, including assigning permanent State staff to key
                                     positions and/or responsibilities.



12
     Management positions such as: WIC Director, Financial Manager Information System Manager, and Vendor Manager.
13
     7 CFR 246.3

USDA/OIG-AUDIT/27004-4-At                                                                                            Page 6
                   Correction of the control weaknesses reported by FNS, such as lack of
                   reconciliation of food instruments and monitoring of vendors, would prevent
                   monetary losses. However, allowing the SA to continuously extend the
                   completion dates for their corrective action plans has instead diminished the
                   agency’s urgency to improve conditions. We concluded that FNS must take
                   steps to correct these problems and to hold the SA accountable for the
                   effective and efficient implementation of its program.

Recommendation 1

                   Establish timeframes for the SA to implement corrective actions for all
                   unresolved issues identified in FNS management evaluations. If corrective
                   actions are not taken by the SA, FNS shall implement the sanctioning
                   provisions defined in 7 CFR 246.19.

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation and will send the State
                            agency a letter requiring a corrective action plan including
                            timeframes for resolving all unresolved issues identified in
                            FNS management evaluations. This letter will detail the
                            penalties and sanctions FNS may apply, in accordance with
                            WIC Regulations, should the corrective action plan not be
                            implemented by the specified due dates. FNS will issue the
                            corrective action plan request letter within 60 days of the
                            official release of the audit. Final action will occur when FNS
                            determines the State agency submitted an approvable
                            corrective action plan with reasonable timeframes as per our
                            agreement with OIG.

                   OIG Position. We accept management decision for this recommendation.

Recommendation 2

                   Require the SA to assign a full-time, or equivalent, administrator for the
                   program as required by Federal regulation 7 CFR 246.3.

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            as an action plan item in the corrective action plan addressed
                            in Recommendation 1.

                   OIG Position. We accept management decision for this recommendation.



USDA/OIG-AUDIT/27004-4-At                                                                     Page 7
Section 2. The SA Should Improve Controls Over Vendors

                   The SA’s continuous disregard of key Federal regulations jeopardized the
                   effectiveness of the management controls and accountability of program
                   funds. By not following controls in the Federal regulations, the SA increased
                   food costs, thus impacting the number of WIC participants that could
                   participate in the program. We found the SA:

                    •   Did not fully reconcile food instruments issued since FY 2000, because
                        the SA failed to request an exception report from its computer contractor
                        to identify those redeemed and paid food instruments without the
                        instruments being listed as issued by clinics. The SA allowed the bank to
                        pay instruments not listed as issued in the clinics’ instrument listings, as
                        we found that the SA could not assure the authenticity of at least
                        11,939 food instruments totaling $335,148 redeemed between May 2005
                        and October 2006.

                    •   Did not perform compliance investigations, including: compliance buys
                        and inventory audits since FY 2000. In the past, these monitoring
                        activities allowed the SA to identify many vendors violating program
                        requirements.

                    •   Did not exclude products with nutritional deficiencies from its list of
                        approved WIC products. Moreover, by not finalizing a current list of
                        approved products, the SA could not authorize new vendor agreements.
                        These agreements had expired in September 2003.

                    •   Used a bidding system to establish prices for program products that was
                        flawed and subject to manipulation; and did not ensure the program
                        received the most competitive prices because it allowed vendors to bid
                        high prices on high consumption products.

                    •   Violated regulations when they condoned the use of in-store credits. We
                        found vendors were not always providing participants with all food
                        allotted to them, yet vendors redeemed the entire value of the food
                        instruments. In five of six “WIC-only” stores we visited, we observed
                        that vendors were maintaining “milk registers.” When participants
                        redeemed their food instruments, all at once, they were taking home
                        fewer commodities than specified, and were instead carrying balances on
                        these “milk registers.” All registers reviewed disclosed participants had
                        outstanding balances of milk not delivered each month. We were unable
                        to quantify the total amount of milk that was reimbursed but undelivered
                        because the informal registers kept by vendors did not include sufficient
                        detailed information. For example, first names were used without the
                        associated last names.

USDA/OIG-AUDIT/27004-4-At                                                                    Page 8
                                    The SA should include corrective action for these problems in the overall
                                    plan it develops in collaboration with FNS.




Finding 2                           The SA Has Not Fully Reconciled WIC Food Instruments

                                    The SA did not have adequate controls in place to ensure the validity of food
                                    instruments redeemed that could not be matched to enrollment records. SA
                                    officials authorized the bank to redeem and pay food instruments even when
                                    the instruments were not listed as issued by the clinics because they assumed
                                    the clinics were having computer transmission problems. However, the SA
                                    did not request an exception report of these instruments to research and
                                    validate at a later time. Since May 2005, a computer contractor, on their own
                                    initiative, started tracking these instruments and recorded 11,939 food
                                    instruments, totaling $335,148, as redeemed from May 2005 to October 2006
                                    without being validated against enrollment records.

                                    Federal regulations 14 require the SA to design and implement a system to
                                    review food instruments submitted by vendors for redemption to ensure
                                    compliance with applicable price limitations and detect questionable food
                                    instruments. This review must examine either all or a representative sample
                                    of the food instruments and may be done before or after the SA makes
                                    payments on the food instruments. WIC policy Memorandum 2002-1 15
                                    clarified the Federal regulations and required the SA to actually match
                                    redeemed food instruments with valid issuance and enrollment records as part
                                    of the food instrument disposition process. Further, FNS has the authority to
                                    establish a claim against any SA that has not taken appropriate followup
                                    action on all redeemed instruments that cannot be matched against valid
                                    enrollment and issuance records 16 .

                                    On a daily basis, local clinics issue food instruments to participants. Each
                                    clinic then transmits to the SA a file listing the instruments it has issued.
                                    When these instruments are redeemed, the SA uses the file to determine
                                    whether the instruments were issued at certified clinics and to validate
                                    enrollment. If a vendor attempts to redeem an instrument not included on the
                                    WIC list, it will be rejected. However, because some clinics experienced
                                    difficulties when electronically transmitting their files (usually caused by
                                    poor telecommunications infrastructure and electrical blackouts), the SA’s
                                    list did not always contain all food instruments issued by certified clinics.
                                    Consequently, the SA had to ask the clinics to retransmit information or send
                                    backups to the computer contractor. Meanwhile, the SA also instructed banks

14
   7 CFR 246.12(k)
15
   Revision 1 – Clarification of WIC Food Delivery Systems Final Rule Questions and Answers
16
   7 CFR 246.23(a)(4)

USDA/OIG-AUDIT/27004-4-At                                                                                 Page 9
                   to process payments even when the instrument was not listed as valid on the
                   SA’s issuance list. From May 1, 2005, through October 31, 2006, the
                   contractor processed payments for 11,939 unverified food instruments
                   totaling $335,148. The computer contractor stated the SA did not request an
                   exception report for these redemptions. Therefore, the contractor started
                   tracking these payments in 2005 because the staff suspected somebody would
                   question these redemptions. In October 2006, we confirmed that the SA
                   continues to pay instruments without validating its issuance with clinics.
                   Although, the SA is currently working with FNS to address backup plans for
                   their telecommunication issues; the staff had not addressed nor requested an
                   exception report to validate these payments. We concluded that the SA’s
                   system was not functioning as designed and should be improved to verify that
                   all food instruments are validly issued.

                   SA officials stated they had not conducted the complete one-on-one
                   reconciliation since the agency acquired the new computer system in
                   FY 2000. FNS confirmed this statement, in its management evaluation
                   reports for FY 2000 and 2003, when it reported the SA had not been
                   conducting the one-on-one reconciliation. SA officials stated at that time the
                   reconciliation could not be performed because they had not requested a
                   reconciliation module when the computer system was purchased in FY 2000.
                   In April 2006, FNS sent a letter to the SA to request an update on the
                   reconciliation process. The SA did not send a written reply, but met with FNS
                   officials in Puerto Rico and stated that corrective action had not been
                   implemented. SA officials informed FNS that to correct the reconciliation
                   issue, they would need to make a change order for their current computer
                   contract. The computer contractor has recently submitted a proposal for the
                   reconciliation module to the SA for review.

                   When discussing this audit result, FNS officials agreed its management
                   evaluation reports were confusing because they intended to report the SA was
                   not validating exceptions identified during the redemption process, such as
                   instruments paid without enrollment records confirmed, instead of concluding
                   the SA was not reconciling instruments at all. FNS officials explained the SA
                   was validating and verifying a large portion of food instruments during the
                   redemption process; because it matched most instruments processed for
                   payment to its enrollment records.

Recommendation 3

                   Require the SA to request an exception report listing all food instruments
                   paid for which issuance could not be confirmed. Develop and implement
                   procedures to research and validate on a monthly basis all these instruments.




USDA/OIG-AUDIT/27004-4-At                                                                Page 10
                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. FNS also reported that
                            on March 6, 2007, the SA submitted to FNS a proposal for a
                            Check Reconciliation Report and Exception Payments Report.
                            The SA confirmed, on April 24, 2007, its agreement to request
                            these reports and develop related implementation procedures.

                   OIG Position. We accept management decision for this recommendation.

Recommendation 4

                   If the SA cannot provide a reasonable explanation for the disposition of food
                   instruments issued, FNS should establish a claim as required in 7 CFR
                   246.23 (a) (4).

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. FNS will also advise
                            the SA that a claim will be assessed for unmatched food
                            instruments that have not been investigated.

                   OIG Position. We accept management decision for this recommendation.




Finding 3          The SA Controls Over Vendor Monitoring is Deficient

                   The SA has not conducted compliance investigations, such as compliance
                   buys and inventory audits as required by regulations, since FY 2000. From
                   FY 2000 until June 2006, inventory audits were not performed because the
                   SA’s new computer system did not have the capabilities to retrieve data
                   needed to perform the audits, and staff was unavailable to perform these
                   audits due to other priorities. Continuous changes in SA management allowed
                   the condition to remain unresolved. Although FNS directed the SA to correct
                   this condition, it did not impose sanctions when corrective actions were not
                   implemented. When a computer programming problem was corrected in the
                   summer of 2005, the SA did not have staff available to conduct the audits. In
                   June 2006, the SA selected 20 vendors to begin conducting inventory audits;
                   however, the SA has not yet reported any results. Further, compliance buys
                   were not performed from FY 2000 until December 2004, because according

USDA/OIG-AUDIT/27004-4-At                                                               Page 11
                                 to a SA official, the high turnover of personnel resulted in the expiration of
                                 the contractor’s agreement. The compliance buys were discontinued again in
                                 May 2006 when the SA’s contract expired. Without completing all types of
                                 oversight activities, the SA cannot be certain that vendors are complying with
                                 program requirements.

                                 Federal regulations require State agencies to design and implement a system
                                 to monitor its vendors for compliance with program requirements. 17
                                 Monitoring visits include two types of oversight—routine monitoring and
                                 compliance investigations, which includes inventory audits and compliance
                                 buys. These monitoring visits serve distinct purposes and are designed to
                                 provide broad assurance that vendors are complying with all relevant
                                 program regulations.

                                 •   The SA is required to conduct routine monitoring visits on a minimum of
                                     5 percent of the number of vendors authorized by the SA. When
                                     conducting routine monitoring reviews, SA representatives select
                                     vendors for review based on criteria established in the State Plan and
                                     identify themselves to vendors during the investigation. Since vendors
                                     are aware when investigators are conducting their routine monitoring,
                                     they are less likely to violate regulations during their visits. The purpose
                                     of this review is for the SA to obtain an overall understanding of how the
                                     program is functioning.

                                 •   The SA is required to conduct compliance investigations on all high-risk
                                     vendors up to a 5-percent minimum; if fewer of the authorized vendors
                                     are identified as high risk, the SA must randomly select additional
                                     vendors. A compliance investigation includes both compliance buys and
                                     inventory audits. When conducting compliance buys, contractors
                                     perform covert onsite investigations of vendors by posing as participants
                                     and redeeming food instruments. The purpose of this review is to provide
                                     assurance that vendors’ actual practices correspond to regulations.
                                     Because vendors are likely to recognize WIC employees, compliance
                                     investigations are conducted by contractors. When conducting inventory
                                     audits, the State internal auditors examine vendors’ food invoices and
                                     other proofs of purchase. The purpose of this review is to determine
                                     whether vendors purchased sufficient quantities of foods to provide
                                     participants the quantities of food redeemed by the vendor during a given
                                     period.

                                 Together, these types of monitoring are meant to provide the best possible
                                 assurance that vendors are following all WIC program requirements. We
                                 found, however, that although the SA had a system to conduct routine


17
     7 CFR, section 246.12(j).

USDA/OIG-AUDIT/27004-4-At                                                                                Page 12
                                        monitoring of 5 percent of its vendors, it has not met the compliance
                                        investigations requirements.

                                         •     Compliance buys—FNS reported in FY 2003 that the agency had not
                                               performed any compliance buys 18 since FY 2001. In its report, FNS
                                               required that compliance buys begin promptly, but the SA did not begin
                                               conducting these buys until December 2004, after approving a contract
                                               needed to conduct compliance buys. The SA again citied the continuous
                                               changes in WIC’s management (mentioned in Finding 1) as its reason for
                                               not timely approving the contract. Since then the SA has recommended
                                               disqualifying 8 of the 15 (53 percent) stores investigated. 19 The
                                               contractor reported that these vendors were allowing participants to
                                               purchase unauthorized products and were redeeming participants’ food
                                               instruments before their first use date, among other program violations.
                                               However, we found that this contract expired in May 2006. Thus, the SA
                                               discontinued compliance buys and did not indicate when this would be
                                               restarted. FNS was not aware of this because they had not conducted a
                                               management review of this program area since August 2003.

                                         •     Inventory audits—Inventory audits had not been performed since
                                               June 1997. SA officials stated the new WIC computer system could not
                                               issue reports with redemption information needed for the inventory
                                               audits. This occurred because the SA did not request such capabilities
                                               when the computer system was acquired in 2000. In the summer of 2005,
                                               the computer contractor corrected the problem and was able to issue
                                               reports; however, the internal auditors could not conduct the inventory
                                               audits because they had other priorities and conflicting schedules. In
                                               June 2006, the SA selected 20 vendors to start conducting inventory
                                               audits. These audits are covering infant formulas and cereals because of
                                               the high cost and trafficking vulnerability. SA officials requested
                                               documentation from the 20 vendors and are currently waiting for some
                                               vendors to deliver the information while analyzing the information
                                               received from others. The SA has not yet reported any results from these
                                               inventory audits. When the SA performed these reviews in earlier years,
                                               the results indicated that vendors were violating program requirements.
                                               In FY 1995, for example, the SA internal auditors performed inventory
                                               audits of 495 authorized stores — their reviews disclosed that 299 stores
                                               (60 percent) were violating program requirements.

                                        We concluded that FNS must take steps to ensure that all of the oversight
                                        activities required by Federal regulations are completed promptly, regularly,
                                        and thoroughly, and that sanctions are enforced against vendors violating
                                        program regulations.

18
     FNS did not report any information about inventory audits.
19
     As of October 2006, none of these stores had been disqualified.

USDA/OIG-AUDIT/27004-4-At                                                                                       Page 13
Recommendation 5

                   Require the SA to perform and complete compliance investigations, up to
                   5-percent minimum of all high risk vendors, including compliance buys
                   and/or inventory audits, in accordance with Federal regulations. If the SA
                   fails to complete these investigations, require the SA to include this
                   noncompliance in its corrective action plan and apply corrective action as
                   stated in Recommendation 1.

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. FNS also reported that
                            on April 24, 2007, the SA advised it had begun action to
                            procure a contractor to perform compliance investigations; and
                            that it will also establish internal procedures to conduct such
                            investigations until a contract for these services is in place.

                   OIG Position. We accept management decision for this recommendation.

Recommendation 6

                   Require the SA to incorporate store owners with numerous violations of
                   program regulations as part of the criteria for selection of high-risk vendors.

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. FNS will require the
                            SA to identify store owners with numerous violations as part
                            of the criteria for selection of high-risk vendors. FNS reported
                            that on April 24, 2007, the SA agreed to implement this
                            request.

                   OIG Position. We accept management decision for this recommendation.




Finding 4          The SA Should Require Vendors to Provide Participants With All
                   Products Listed on Their Food Instruments

                   Five of the six “WIC-only” vendors reviewed allowed participants to fully
                   redeem their food instruments, take only a portion of their products, and carry

USDA/OIG-AUDIT/27004-4-At                                                                  Page 14
                                      an informal credit account balance from which they could draw later. In
                                      violation of Federal regulations and WIC program requirements, vendors
                                      were redeeming food instruments and charging the SA for goods that
                                      participants had not yet received or may not receive at all. Though this
                                      system of in-store credit was referred to as a “milk register,” it was also used
                                      to carry balances for products other than fresh milk. Even though they knew
                                      it was against regulations, the SA condoned the vendors’ practice of keeping
                                      “milk registers”, believing it justifiable considering the large amount of fresh
                                      milk that was prescribed to WIC participants and the associated difficulties in
                                      transporting the milk to the recipients’ residence and storing it. However,
                                      FNS officials stated that the milk prescribed to participants was in accordance
                                      with Federal regulations and that the SA should enforce the proper
                                      redemption of food instruments. We were unable to quantify the total amount
                                      of milk for which vendors received reimbursement but did not deliver
                                      because the informal registers vendors kept did not include sufficient detailed
                                      information, such as first names being used without the associated last names.
                                      After we discussed this condition with SA officials, they sent a letter in
                                      August 2005 to vendors prohibiting “milk registers” and reminding them of
                                      possible penalties if they do not deliver all products when food instruments
                                      are redeemed. However, the SA has not improved monitoring controls over
                                      vendors to determine if this prohibited practice continued. As a result,
                                      vendors redeemed food instruments and received reimbursement for products
                                      that had not yet been provided to WIC participants.

                                      We noted that from October 1, 2004, through June 30, 2005, the six sample
                                      vendors redeemed more than $10.5 million for fresh milk. Thus, we
                                      attempted to verify whether the vendors’ redemption matched their inventory
                                      levels. We compared WIC vendors’ fresh milk invoices to their claims for
                                      redemption to determine the amount of milk not delivered to WIC
                                      participants. We found that the quantity of milk vendors purchased was
                                      similar to the quantity they reported as redeemed in the WIC program. This
                                      would suggest that vendors had not delivered to WIC participants all the
                                      fresh milk purchased because these stores sold milk to non-WIC customers as
                                      well. Also, participants were carrying balances on the “milk registers.” Since
                                      our review disclosed that the milk reported as redeemed matched milk
                                      purchased (even with the “milk registers”), we concluded that the vendors
                                      were claiming for reimbursement milk that had not yet been received by
                                      program participants.

                                      Federal regulations state that vendors may not, in exchange for WIC food
                                      instruments, provide unauthorized food items, non-food items, cash, or credit
                                      (including rain checks). 20 The SA’s agreement states that vendors are to
                                      provide participants all the food products listed on the checks or exchange
                                      instruments upon presentation of the check or exchange instruments. If

20
     7 CFR, section 246.12(h)(3)ii.

USDA/OIG-AUDIT/27004-4-At                                                                                     Page 15
                                      vendors display a pattern of charging for supplemental food that participants
                                      do not receive, they may be suspended from the program for 3 years. 21

                                      We obtained copies of 23 “milk registers” for 5 of the 6 vendors reviewed, 22
                                      and learned that participants did not obtain all food items on the redeemed
                                      food instruments assigned to them and vendors were keeping a running
                                      balance of participants’ fresh milk that remained undelivered. 23 For example,
                                      one register showed that a participant’s guardian was increasing its register
                                      by 28 half gallons of fresh milk each month from two participants and carried
                                      a balance of 68 half gallons not delivered as of June 29, 2005, for a total
                                      value of $146.20.

                                      SA officials knew that vendors kept “milk registers”, and that this practice
                                      violated Federal regulations. They were also aware this was an ongoing
                                      practice for the last 6 years mostly in small retail and “WIC-only” stores.
                                      However, State officials stated that they were not aware that other items –
                                      such as cereals, juices, and other products that did not pose transportation
                                      problems – were added to participants’ balances on vendors’ “milk registers”.
                                      SA officials condoned the practice, believing it was justifiable because some
                                      participants’ monthly food packages contained too much fresh milk for
                                      purchase at one time. One monthly food package, for example, includes
                                      14 half gallons of fresh milk each month; 24 however, such packages are
                                      divided into several food instruments. In this case, the participant would
                                      receive three instruments, two with five half gallons of fresh milk and one
                                      with four. Although State officials claimed that participants were instructed
                                      to redeem just one instrument at a time, they were also aware this
                                      requirement was not enforced and was not followed; and, as we observed,
                                      participants often redeemed all the month’s instruments 25 on the same day. 26
                                      State officials also justified this practice on the grounds that participants
                                      might not always have transportation to go to a store several times a month.
                                      We noted, however, that participants who carried balances on their “milk
                                      registers” often made several trips to the store each month to draw upon their
                                      balance.



21
   7 CFR, section 246.12(l)(1)iii(E).
22
   The sixth vendor claimed he did not maintain “milk registers”; when we reviewed the report listing the food instruments redeemed at that store,
however, we learned that the store was redeeming consecutive instruments on the same day. Likewise, we observed the vendor’s employee deliver milk to
WIC recipients without collecting payment. Given the quantities of products involved, this fact strongly suggests that “milk registers” were being
maintained at that store.
23
   The quality of these registers varied. Some were very detailed and required participants’ signatures, while others were little more than a running total.
It was impossible to trace the transaction on these “milk registers” to the redemption of food instruments, as cards often listed a guardian’s name and not
the WIC participant. However, since these registers were obtained from a “WIC-only” store, it was reasonable to conclude that they belonged to WIC
participants. In addition, we also observed participants using the “milk registers”.
24
   Some SA officials believed this quantity of milk was too much; however, the nutritionist prescriptions met the requirements specified in 7 CFR, section
246.10(c)(5)(vi).
25
   Participants are issued two to three consecutively numbered instruments for each month.
26
   Vendors often deposited their food instruments on a daily basis, and frequently deposited consecutive instruments on the same day. Because
participants are issued consecutively numbered food instruments, this fact suggests that the same participant is redeeming multiple instruments on the
same day.

USDA/OIG-AUDIT/27004-4-At                                                                                                                       Page 16
                   We understand participants cannot reasonably be expected to store 14 half
                   gallons of fresh milk at a time, however, “milk registers” are not an
                   acceptable solution. “Milk registers” violate Federal regulations and WIC
                   program requirements because they are, in fact, a form of in-store credit.
                   They result in vendors being paid for milk they may never provide to
                   participants. Participants are not required to take the entire month’s allotment
                   of fresh milk with them all at once—they receive several food instruments a
                   month and quantities of fresh milk are reasonably divided between these
                   instruments.

                   When we brought the existence of “milk registers” to FNS’ attention, agency
                   officials were unaware vendors had been offering participants in-store credit
                   or that the SA had condoned the practice as FNS does not visit vendors
                   during their management reviews. FNS stated their role is to oversee and
                   evaluate program operations, not to conduct compliance activities. FNS
                   agreed that “milk registers” or any other system of in-store credit violates
                   Federal regulations, creates the potential for abuse, and should be
                   discontinued.

                   After we discussed this finding with State officials, they sent a letter on
                   August 8, 2005, to vendors prohibiting “milk registers” and reminding them
                   of possible penalties if they do not deliver all the products to participants
                   when food instruments are redeemed. However, the SA has not developed a
                   process to identify and evaluate consecutive food instruments, including fresh
                   milk, that are redeemed the same day to identify vendors and/or participants
                   that are potentially violating program regulations. Therefore, we concluded
                   that the SA must improve how it monitors vendors. In particular, the SA
                   should check for “milk registers” or other systems of in-store credit, as part
                   of the routine monitoring and compliance buys it performs when monitoring
                   vendors (see Finding 3). In addition, the SA should include fresh milk as a
                   food item verified in the inventory audits.

Recommendation 7

                   Require the SA to include in its routine monitoring of vendors, tests to verify
                   that all foods—including fresh milk—are being delivered to participants
                   when they redeem food instruments, and steps to determine if any forms of
                   in-store credits are being utilized by vendors and enforce the related penalties
                   and sanctions.

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. FNS also reported that
                            on April 24, 2007, the SA advised it had sent a letter
USDA/OIG-AUDIT/27004-4-At                                                                  Page 17
                            informing vendors to “cease and desist” using milk registers.
                            The SA also agreed to include monitoring procedures in its
                            compliance investigations and routine monitoring visits.

                   OIG Position. We accept management decision for this recommendation.

Recommendation 8

                   Require the SA to develop and implement a process to identify the same day
                   redemption of consecutive food instruments that include fresh milk;
                   determine who violated the program’s food delivery requirements and
                   enforce the related penalties and sanctions.

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. Also, FNS reported that
                            on April 24, 2007, the SA agreed to develop and implement a
                            process to identify same day redemption of consecutive food
                            instruments that include fresh milk. The SA will determine
                            who violated the program’s food delivery requirements and
                            enforce the related penalties and sanctions.

                   OIG Position. We accept management decision for this recommendation.

Recommendation 9

                   Require the SA to include the verification of fresh milk redemptions when
                   conducting compliance buys and inventory audits.

                   Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. Also, FNS reported that
                            on April 24, 2007, the SA agreed to revise their compliance
                            buy and inventory audit procedures to include the verification
                            of fresh milk redemptions.

                   OIG Position. We accept management decision for this recommendation.




USDA/OIG-AUDIT/27004-4-At                                                                Page 18
Finding 5                         The SA Did Not Exclude Products With Nutritional Deficiencies

                                  Since August 2003, the SA was aware that 33 products prescribed to
                                  participants failed to meet Federal nutritional requirements. State officials did
                                  not take appropriate steps to inform vendors that these products were
                                  suspended from the program and to ensure that vendors stopped selling these
                                  products. Due to the rapid turnover in critical management positions
                                  described in Finding 1, we were unable to speak to the officials who could
                                  explain why vendors were not notified about the failed products. Current
                                  “acting” management officials could not explain the lack of notification but
                                  informed us that they were taking active steps to remedy this problem,
                                  including creating a new list of approved products and informing vendors of
                                  what products do not meet Federal standards. Until these steps are completed,
                                  the State has no assurance that participants are receiving products that meet
                                  Federal nutritional requirements. Moreover, until the list of products is
                                  approved, the program continues to operate with vendors agreements that
                                  expired in September 2003. New vendor agreements cannot be executed until
                                  the list of products used in food instruments are approved.

                                  Federal regulations require that foods dispensed as part of the WIC program
                                  contain nutrients beneficial for pregnant, breastfeeding and postpartum
                                  women, as well as infants and children. 27 Those regulations set forth the
                                  nutrients needed in each food authorized. 28 For example, for infants between
                                  4 and 12 months, juices must contain 30 milligrams of vitamin C per every
                                  100 milliliters; dry cereals must have a minimum of 28 milligrams of iron per
                                  100 grams, and not more than 21.2 grams of sucrose and other sugars per
                                  100 grams. SAs are responsible for identifying foods that meet program
                                  requirements. 29 Although WIC food instruments identify the type of food
                                  item authorized, i.e., juice, they do not identify a specific brand since the SA
                                  may authorize more than one brand of a food item.

                                  After responding to a hotline complaint, the Food and Drug Administration
                                  (FDA) informed the SA in 2002 that six flavors of juices from two
                                  manufacturers approved for the WIC program had failed its nutritional tests
                                  and were incorrectly labeled. FDA informed the SA of these test results so
                                  that the SA could evaluate manufacturers participating in the program and
                                  ensure that their products met Federal standards. In response to this letter, the
                                  SA requested USDA’s Agricultural Marketing Service (AMS) to conduct
                                  nutritional testing of WIC-approved products to identify any that were not in
                                  compliance with the regulations. In June 2003, the SA signed a memorandum

27
   7 CFR, section 246.2.
28
   7 CFR, section 246.10(c).
29
   7 CFR, section 246.10(b)(1).

USDA/OIG-AUDIT/27004-4-At                                                                                  Page 19
                                     of understanding with AMS to test current products, as well as to begin
                                     continuous monitoring of approved products. Their goal was to ensure that all
                                     products reaching WIC participants met Federal nutritional standards.

                                     In FY 2003, the SA was also due to update its list of approved products as
                                     part of renewing vendors’ contracts. 30 Given FDA’s concerns, the SA
                                     established a committee to oversee this process, ensure that product selection
                                     was unbiased, and verify that products were correctly tested. Manufacturers
                                     who wished to have their products included on WIC’s list were required to
                                     submit their products along with AMS’ certification that these products met
                                     Federal nutritional standards. According to AMS’ tests, 33 products failed to
                                     meet these standards. 31 AMS officials stated some products failed the first
                                     test; however, passed the second test after the SA granted them an appeal
                                     right. 32 The SA had originally given manufacturers the right to appeal this
                                     decision up to three times; however, the SA legal advisors decided that its
                                     appeals process was flawed because it could not allow the SA to overrule
                                     decisions made by AMS. After seeking and receiving legal advice concerning
                                     this issue, the SA stopped the committee’s work by halting the appeals,
                                     canceling the selection process, and disbanding the committee. Products that
                                     had failed AMS’ tests—many of which were already on WIC’s prior list—
                                     were thus left to be stocked on vendors’ shelves and sold to participants since
                                     WIC vendors were not informed that the failed products were suspended
                                     from the program.

                                     In 2004, the SA established a second committee to revise WIC’s list of
                                     approved products. Once again, manufacturers who wished to have their
                                     products included were required to submit their products for consideration in
                                     the program after they had been tested by AMS. This second committee
                                     prepared a list of approved products in August 2004, based on AMS’ testing
                                     results. Although the SA informed all manufacturers failing these tests that
                                     their products were suspended from the program, the SA again did not inform
                                     vendors participating in the program that these products were no longer
                                     eligible for distribution to WIC participants. Again, due to the rapid turnover
                                     of staff discussed in Finding 1, current officials could not explain why a
                                     notification to vendors was not sent. Consequently, the SA has no assurance
                                     that vendors discontinued distributing these products to participants.
                                     Moreover, FNS Regional and SA officials stated the WIC program staff
                                     lacked the authority to withdraw products from the shelves, but they do have
                                     the authority to eliminate brands of products from their list of approved
                                     products. Also, they could not withhold funds from vendors since the food
                                     instruments do not list brands delivered to participants.


30
   WIC updates this list every 3 years when vendors’ agreements are renewed. The list includes the brands authorized per food, which is information not
included in the food instruments.
31
   The total number of products tested for nutritional value is unknown since neither the SA nor AMS kept records with the information.
32
   Although the same brands were tested, new “batches” of products were tested for the second test.

USDA/OIG-AUDIT/27004-4-At                                                                                                                     Page 20
                    The SA concluded that the list of authorized products developed by the
                    2004 committee was incomplete. Because manufacturers did not submit
                    applications for all products needed in the WIC program, the committee
                    could not select products for all categories. The SA thus decided to merge
                    their complete list of products approved prior to 2001 with the incomplete list
                    of products approved in 2004. However, this combined list will include
                    products that had failed previous tests. Once the lists are combined, the SA
                    plans to ask the University of Puerto Rico to test products on the merged list.
                    Because juices tend to be the products with the most failed nutrition tests,
                    they would be the primary focus of these tests.

                    The SA approved a new list of products on November 8, 2006. The SA
                    Acting Director stated that they would begin the selection of vendors and
                    renewal of expired agreements on November 9, 2006. According to the
                    vendor cost containment measurement plan, the selection of vendors should
                    be completed by December 30, 2006.

Recommendation 10

                    Require the SA to remove products from the authorized food list when it
                    comes to its attention that the product has failed a nutritional test.

                    Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. Also, FNS reported that
                            on April 24, 2007, the SA agreed to provide FNS with a policy
                            regarding the removal of products from the authorized food
                            list when the SA learns that the products have failed
                            nutritional tests.

                    OIG Position. We accept management decision for this recommendation.

Recommendation 11

                    Require the SA to include during monitoring visits and compliance
                    investigations, a requirement to verify that products suspended from the
                    program are not being provided to participants.

                    Agency Response. FNS stated in its May 9, 2007, response:

                            FNS concurs with this recommendation. FNS will include this
                            requirement as an action plan item in the corrective action
                            plan addressed in Recommendation 1. FNS will require the
                            forms used by the SA during monitoring visits and compliance
USDA/OIG-AUDIT/27004-4-At                                                                  Page 21
                                                    investigations include the verification that products suspended
                                                    from the program are not being provided to participants. Also,
                                                    FNS reported that on April 24, 2007, the SA agreed to revise
                                                    their current procedures.

                                        OIG Position. We accept management decision for this recommendation.



Finding 6                               The SA Needs to Improve its Vendor Selection Process

                                        We found that the SA compromised the vendors’ bidding process by
                                        releasing the consumption factor of products to vendors prior to bids being
                                        accepted. The consumption factor shows the quantity of each particular food
                                        item that is prescribed on food instruments to the program participants. Thus,
                                        the released consumption factor information allowed vendors to calculate
                                        their bid prices in ways that increased food costs and was disadvantageous to
                                        the program by overpricing high consumption food items and underpricing
                                        low consumption food items. In addition, the SA did not take into
                                        consideration these factors that impacted the bid prices when authorizing
                                        vendors. Rather, the SA simply added the total amount for each product as
                                        the total package bid, giving no consideration to the quantity of each item
                                        that participants would actually consume. Allowing vendors access to this
                                        information meant that they could—potentially—arrange the bidding process
                                        so that they could sell high consumption factor items at a high price and
                                        greater profit. Current SA officials could not explain why the decision was
                                        made to release this information, as the officials who made this decision have
                                        left the agency (see Finding 1). In September 2006, FNS approved a vendor
                                        cost containment measurement plan submitted by the SA that includes setting
                                        maximum allowable prices. If properly implemented, the plan should correct
                                        this situation.

                                        In 1995, the SA implemented a selection process known as Selección
                                        Efectiva de Negocios Autorizados 33 (SENA), to address vendors charging
                                        exorbitant prices for WIC authorized products. SENA required vendors to bid
                                        a price for individual products authorized in the program and submit a total
                                        price for the list. The program then selected vendors whose total
                                        price—calculated as the sum of all the individual products—was economical
                                        to the program. Selected vendors were obligated to charge the prices bid
                                        throughout the duration of their agreement.

                                        According to FNS officials, SENA worked well during the selection of
                                        vendors from 1996 through 2000. We found, however, that when the last


33
     English translation is Effective Selection of Authorized Vendors.

USDA/OIG-AUDIT/27004-4-At                                                                                         Page 22
                                     bidding process was conducted in 2001 34 , the SA compromised SENA by
                                     releasing information on the consumption factor of each product. This
                                     information allowed vendors to establish higher bid prices for heavily
                                     consumed products and lower prices on lesser used products. FNS officials
                                     had noted the high cost of food in Puerto Rico and were concerned that
                                     problems with the vendor bidding process might be causing the high costs.
                                     However, FNS staff stated that since no other State used SENA to compare
                                     bidding information they were not able to confirm their suspicions with the
                                     vendor bidding process. This was an issue limited to Puerto Rico. Current SA
                                     officials were unaware of actions taken by prior SA officials. We determined
                                     the SA controls over the vendor bidding process were not adequate to ensure
                                     that the program received the best possible prices.

                                     In 2001, vendors learned the SA selected bids, not based on the prices of
                                     individual goods, 35 but rather on the sum of the entire list. With such a
                                     system, vendors could offset high bids on high demand products with low
                                     bids on low demand products. When the bids for each product are tallied, the
                                     overall bid can still appear low, even as the prices for some items are quite
                                     high. Additionally, by publishing these factors, the SA unknowingly provided
                                     vendors with data they could use to manipulate the bidding process. All
                                     program commodities are not consumed equally. Some commodities such as
                                     juice and dried cereal are consumed frequently; others, such as tuna, are
                                     consumed less frequently. Consumption factors indicate the frequency that
                                     program participants would be purchasing products on the lists. Since
                                     vendors are now aware of this system and know their bids will be selected on
                                     the total price of all products, the SA bidding process is vulnerable to abuse.

                                     Further compounding the consumption factor problem, we also found the SA
                                     bidding system was not designed to detect and reject unusually high or low
                                     bid prices. The computer contractor staff explained the SA had not
                                     established those controls in the computer system. Further, current SA staff
                                     confirmed they had never used reports which compared vendors’ prices
                                     against the island’s average price. As a result, the SA approved a vendor who
                                     bid $130.64 for the list of products while also approving another vendor who
                                     bid $306.28 for the same list of products. In fact, a vendor was approved even
                                     though it bid $28 for a box of dry cereal when the island-wide average price
                                     for similar boxes of cereal was just $2.40. Although OIG believes that this
                                     bid was a mistake, 36 the SA accepted this bid and authorized this vendor to
                                     charge the program $28 per box of dried cereal sold to program participants.
                                     Since the computer system did not have controls in place to exclude bids
                                     higher than a maximum allowable price per product, the error was never
                                     identified and corrected. Since food instruments are redeemed based on the
34
   Since the SA had not been able to finalize the list of authorized products (See Finding 4) which is needed to request bids from vendors, the SA had not
requested new bids since 2001. The bid prices have remained the same except for SA authorized increases due to inflation.
35
   Vendors’ bid prices represent the amount the SA will be reimbursing for the foods delivered to participants.
36
   When vendors bid on cereal under this program, they bid per ounce on two 10 oz. boxes of cereal. Had the vendor bid $.28 per ounce, that bid would
have been within a reasonable range for this product. However, this vendor bid $2.8 per ounce. We have no evidence to suggest that this was not an error.

USDA/OIG-AUDIT/27004-4-At                                                                                                                     Page 23
                    total value of the foods listed in the instruments, we were unable to determine
                    if this vendor charged the program $28 per box of cereal since multiple
                    products are grouped together and the vendor charges by total check amount.

                    In June 2004, Congress enacted Public Law 108-265 to contain vendors’
                    costs, requiring the SA to establish distinctive competitive prices and
                    allowable reimbursement levels based on vendor peer groups. On
                    September 27, 2006, the SA submitted to FNS a Vendor Cost Containment
                    Measurement Plan which described how the SA computed a statewide
                    supplemental food average price for all authorized food products. The
                    maximum allowable reimbursement level was to be calculated using shelf
                    prices collected from a random sample of 139 vendors. In addition, the SA
                    will be grouping vendors into peer groups (geographical areas comparable
                    group) for the authorization and selection process. FNS approved the
                    proposed plan on October 4, 2006, and the SA began implementation of the
                    plan in November 2006.

Recommendation 12

                    Ensure prompt and proper implementation of the SA Vendor Cost
                    Containment Implementation Plan approved by FNS in October 2006.

                    Agency Response. FNS stated in its May 9, 2007, response:

                            On December 28, 2006, the SA confirmed that full
                            implementation had occurred of the FNS approved Vendor
                            Cost Containment plan. The SA made policy and procedure
                            changes to reflect changes in accordance with provisions of
                            Public Law 108-265. FNS noted the approved plan was in
                            effect on December 29, 2006, and is being utilized for the
                            selection process. The completion of the vendor selection
                            process is currently underway, and all plan requirements will
                            be met.

                    OIG Position. We accept management decision for this recommendation.




USDA/OIG-AUDIT/27004-4-At                                                                  Page 24
Scope and Methodology
                   Audit fieldwork was performed from April to October 2006, at the FNS
                   Mid-Atlantic Regional Office, Robbinsville, New Jersey; the FNS Caribbean
                   Area Office, San Juan, Puerto Rico; and the WIC SA, San Juan, Puerto Rico.

                   We assessed WIC vendor management operations during FYs 2004 through
                   2005. The SA food costs were $143.5 million in FY 2004, and $146.3 million
                   in FY 2005. To assess their oversight of the WIC program operations, we
                   evaluated FNS’ and the SA monitoring activities from FY 2000 through
                   FY 2005. We were unable to review implementation of the new vendor cost
                   containment provisions enacted by the Reauthorization Act of 2004 because
                   the SA submitted and obtained approval of their cost containment plan from
                   FNS in October 2006 which was after our audit fieldwork. To assess the
                   infant formula cost containment program, we (1) reviewed the SA selection
                   process of the formula company, (2) reviewed how the SA processed the
                   rebate forms, and (3) validated infant formula on the rebate forms to
                   purchases of infant formula listed on the vendors’ invoices.

                   To assess the SA activities, we judgmentally selected 6 of 51 “WIC-only”
                   vendors. Vendors were selected based on the value of the food instruments
                   they redeemed in the third quarter of FY 2005. We selected five vendors
                   from top 25 municipalities with the largest redemption of food instruments
                   and one vendor was selected in a small rural municipality. We expanded our
                   scope to assess the SA’s controls over the authorization and monitoring of all
                   WIC stores after we determined that the controls for the “WIC-only” stores
                   were the same for all types of stores.

                   To accomplish our objectives, the audit included interviews with FNS, SA
                   personnel, and others as deemed necessary. In addition, we:

                   •   reviewed legislation, program regulations, guidance, policies, and
                       procedures as applicable to the WIC vendor management and infant
                       formula cost containment program;

                   •   reviewed external and internal audit reports, financial reports, and
                       performance reports;

                   •   reviewed copies of WIC vendors’ agreements, food instruments
                       redemption reports and vendors’ invoices to assess authorization, and
                       activities of WIC vendors;

                   •   interviewed the computer contractor and bank officials to assess how
                       food instruments were redeemed; and

USDA/OIG-AUDIT/27004-4-At                                                                Page 25
                   •   visited 6 of 51 WIC vendors classified as “WIC-only” or Baby Food
                       Centers to ensure vendors were maintaining minimum inventories and
                       dispatched products in accordance with program requirements and we
                       found no material exceptions. We also reviewed food instruments on
                       hand to ensure they were handled in accordance with regulations.
                       During our vendor visits, we also reviewed infant formula invoices and
                       rebates to ensure that invoices listed the same formula as the rebate
                       forms.

                   This audit was conducted in accordance with generally accepted government
                   auditing standards. Accordingly, it included such tests of FNS’ monitoring of
                   the SA operations and other auditing procedures necessary to accomplish our
                   audit objectives.




USDA/OIG-AUDIT/27004-4-At                                                               Page 26
Exhibit A – Outstanding Issues Reported by FNS in the Management
Evaluation Report
                                                                                     Exhibit A – Page 1 of 1



                                                                                         Number of
Reporting
                    Area                          Issues Outstanding                       findings
  year
                                                                                         outstanding
            Food Funds & Caseload
  2000      Management              Absence of one-on-one reconciliation.                      1
            Food Funds & Caseload
  2003      Management              Absence of one-on-one reconciliation.                      1
                                    Establish a plan to limit the use of non-contract
  2003      Nutrition Services      infant formula.                                            1
  2003      Information System      Validation of information in the system's reports.         1
  2003      Vendor Management       Compliance buys not being conducted.                       1
                                    No formal system to review food instruments;
                                    absence of one-on-one reconciliation; and the need
                                    to develop a contingency plan to handle the power
  2003      Food Delivery           outages.                                                   3
 TOTAL                                                                                         8




USDA/OIG-AUDIT/27004-4-At                                                                          Page 27
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 6




USDA/OIG-AUDIT/27004-4-At                  Page 28
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 6




USDA/OIG-AUDIT/27004-4-At                  Page 29
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 6




USDA/OIG-AUDIT/27004-4-At                  Page 30
Exhibit B – Agency Response
                              Exhibit B – Page 4 of 6




USDA/OIG-AUDIT/27004-4-At                  Page 31
Exhibit B – Agency Response
                              Exhibit B – Page 5 of 6




USDA/OIG-AUDIT/27004-4-At                  Page 32
Exhibit B – Agency Response
                              Exhibit B – Page 6 of 6
Informational copies of this report have been distributed to:

Regional Administrator, FNSRO (6)
Agency Liaison Officer (3)
Government Accountability Office (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
Office of Management and Budget (1)
